No. 19IN Tnn

Supreme @ourt of tbe Wnite! btuteg
Repuetrc or KezercrsrAN,
Petitioner,
v.

ANerorre SrATl, GesRInr STATI,
Ascou GRour, S.A., aNo

TSRRA RaT TnaNS TRAIDING LTD.,

Respondents.

Petition For a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Jonathan S. Franklin,

a

member of the Bar of this Court, certifr that the Republic of Kazakhstan's Petition

for a Writ of Certiorari contains 8,098 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).

I declare under the penalty

of perjury that the foregoing is true and correct.

Executed on September 3, 2OI9.

than S. Franklin

Rosn FuLenTcHT US LLP
gth
799
Street, NW, Suite 1000
Washington, DC 20001
ORTON

(202) 662-0466

Counsel for Petitioner

